BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amicus Curiae of Commercial Law
League of America in Support of the Petitioner in 20457, MarketGraphics Research Group, Inc. , v. David
Peter Berge was sent via Three Day Service to the U.S.
Supreme Court, and 3 copies were sent via Three Day
Service and e-mail to the following parties listed
below, this 9th day of November, 2020:
Neal Katyal
Columbia Square
555 Thirteenth Street NW
Washington, D.C. 20004
(202) 383-8888
neal.katyal@hoganlovells.com

Counsel for Petitioner
Brian Burgess
Goodwin Proctor
1900 N Street NW
Washington, D.C. 20001
(202) 346-4000
BBurgess@goodwinlaw.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102

I Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

James W. Hays
Counsel of Record
Hays Potter & Martin, LLP
3945 Holcomb Bridge Road
Suite 300
Peachtree Corners, GA 30092
(770) 934-8858
beau@hpmlawatl.com
Jonathan Kramer
Whitfield & Eddy, PLC 699 Walnut Street,
Suite 2000
Des Moines, IA 50309
(515) 288-6041
Counsel for Amicus Curiae
Commercial Law League of America

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 9, 2020.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

A,,~/µ{_ 11 J-oJ-o

c~ tJ~

Notary Public

.~
\)

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

